\Ys

A

Mntteh States (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted December 17,2020
Decided December 23, 2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 20-2716 •
KENNETH MCBRIDE,
Petitioner-Appellant,

v.
DUSHAN ZATECKY,
Respondent-Appellee.

Appeal from the United States District
Court for the Northern District of Indiana,
South Bend Division.
No. 3-.19-CV-50
Robert L. Miller, Jr.,
Judge.
ORDER

Kenneth McBride has filed a notice of appeal from the denial of his petition
under 28 U.S.C. § 2254 and an application for a certificate of appealability. This court
has reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. McBride's
motions to proceed in forma pauperis and for appointment of counsel are DENIED.

T

Hmtetr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 26, 2021
Before

ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

\

No. 20-2716
KENNETH McBRIDE,
Petitioner-Appellant,

Appeal from the United States District Court
for the Northern District of Indiana,
South Bend Division.

v.
No. 3:19-CV-50
DUSHAN ZATECKY,
Respondent-Appellee.

Robert L. Miller, Jr.,

Judge.

ORDER
No judge of the court having called for a vote on the Petition for Rehearing En
Banc, filed by Petitioner-Appellant on January 8,2021, and all of the judges on the
original panel having voted to deny the same,
IT IS HEREBY ORDERED that the Petition for Rehearing En Banc is DENIED.

' <D,'

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 1 of 16

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
KENNETH MCBRIDE,
Petitioner,
CAUSE NO.: 3:19-CV-50-RLM-MGG

v.
WARDEN';
Respondent.

OPINION AND ORDER
Kenneth McBride, a prisoner without a lawyer, filed a habeas corpus
petition challenging his 2012 convictions in Marion County for criminal
confinement and robbery. For the reasons stated below, the court denies his
petition.

I.

BACKGROUND

In deciding the petition, the court must presume the facts set forth by the
state courts are correct. 28 U.S.C. § 2254(e)(1). It’s Mr. McBride’s burden to rebut
this presumption with clear and convincing evidence . Id. The Indiana Court of
Appeals set forth the facts underlying Mr. McBride’s convictions as follows:

the hidianapohs
(Market^a grocery ttom onl^ayrtte8’RolcTowned by Bay Le Zhu
Zhul and her husband. Officer Irwin arrived within one minute and
found that the employees, two of whom
^“y^Tkeri^n
7hu’s six-vear-old son Brian were locked inside the Market, irwm
So found a twelve gauge shotgun lying on the ground next to th
market.

ph. 3

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20

page 2 of 16

It was later established that Zhu, Brian, Zhu’s nephew Yixiu
Chen (Yixiu), Kia Wong (Wong) and his wife, Cai Nong Chen (Cai)
were all at the market when McBride and two other men, each armed
and wearing dark clothing, gloves, and masks, entered the Market
through
_
, a back door and locked the door behind them. The men
confined everyone m the kitchen, striking several of the victims with
their guns and binding their hands and legs with duct tape. After
the men demanded money, Zhu gave them $1200 that she had in
her pocket and was escorted out of the kitchen to the cash register,
where they took additional money. When Van Duong, a regular
customer, came by, he noticed that the door was locked even though
the lights were on and the “open” sign was displayed. Suspicious,
Duong peered through the Market window and observed masked
men but none of the store employees. When he looked again, he saw
Zhu taking money from the register, and she gave him a sign to call
for help.
McBride and the other men escaped in Wong’s vehicle, taking
with them Wong’s cell phone, Yixius’s cell phone and many of his
keys including his house and the Market keys, Zhu’s purse and
keys, the $1200 that Zhu had on her, and the money from the cash
register. Duong got a good look at McBride and provided the license
plate number of the getaway vehicle to the 911 dispatcher. He also
reported that the vehicle had traveled south on Lafayette Road.
Officers located the vehicle after a citizen reported seeing someone
flee from the vehicle.
At around 5:00 p.m., McBride and his co-defendant, Adrian
Jackson, were apprehended. They were found crouched down
between a wood deck area and a garage, wearing dark clothing and
shoes matching those worn by the robbers. Around and under the
deck where McBride and Jackson were apprehended, the officers
recovered several pieces of dark clothing, including a stocking cap
mask, three dark gloves, the distinctive jacket worn by one of the
men
_ durmg the robbery with a Bic lighter in it that matched
McBrides DNA, multiple cell phones, a set of keys, and a small
purse, all of which were items taken from the victims during the
robbery.^ Additionally, a piece of foreign currency and a rifle with
Jackson’s DNA were recovered. Officers also found $622 on McBride
and $1106 on Jackson.
Jackson and McBride were arrested and taken to the police
station and Zhu, Cai, Wong, and Duong were brought over for a
show-up identification. All but Wong identified either one or both
men as the robbers with seventy to one
r.
. . ,
hundred percent certainty.
Duong positively identified both men, stating that Jackson was the
2

fVft.

L/ N

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 3 of 16

driver and McBride was the front seat passenger in the getaway
vehicle.
On March 9, 2012, the State charged McBride with Counts I
and II, class B felony criminal confinement, Counts III, IV, and V,
class B felony robbery, and Counts VI, VII, VIII, class C felony
battery. On March 13, 2012, McBride was appointed a public
defender. On that day he also made a pro se request for a speedy
trial, but on May 10, 2012, his counsel requested a continuance,
which the trial court granted. McBride was unhappy about his
appointed counsel’s decision to request a continuance despite his
speedy trial request and proceeded to file motions and briefs pro se.
McBride claimed that because his appointed counsel sought a
continuance against his will and was not doing what he asked her
to do, she had violated his constitutional right to counsel as well as
the rules of professional conduct.
On July 31, 2012, a waiver of counsel hearing was held,
during which McBride asked the trial court if he could proceed as
co-counsel. This request was denied because the trial court stated
he was attempting to take the lead in his own defense, thus placing
' ‘ counsel at risk. McBride then petitioned the trial court to
his
proceed pro se.
At a later hearing on August 16, 2012, the trial court
questioned McBride about his knowledge of the requirements for pro
se litigants and advised McBride of the responsibilities, dangers, and
disadvantages that he might face by proceeding pro se. The trial
court also told McBride he was responsible for objections and that
objections are the manner in which he could preserve issues for
appeal. The trial court specifically told McBride that if objections are
not made during trial, that particular issue would be
J”l
appeal During the advisement of rights hearmg, the tna. cou. not convinced that McBride would be prepared ^ proceed pro se mad
expressed this concern to McBride several times. McBride
acknowledged the fact that he needed counsel but refused to al ow
his appointed counsel to represent him because according to him,
his rights had been violated by the appointed counsel.
of how McBride’s
rights had been vkilateTby^his^ounse^the^ri^court told McBride

right to counsel of his choice.

3

pb- 5 <

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 4 of 16
The trial court also verified that McBride had the educational
background and mental capacity to defend himself and that no one
had made either promises or threats to coerce him into waiving his
right to counsel. After the trial court read the advisement of rights,
McBride still insisted on representing himself and signed a written
advisement form stating that he had thoroughly reviewed all the
dangers and disadvantages of self-representation and had full
knowledge of them. Although the trial court granted McBride’s
request to proceed pro se, it also appointed McBride with “standby
counsel” that could answer questions about trial procedure.
A jury trial was held from September 17-19, 2012. On
September 19, 2012, the State dismissed Count VIII, and the jury
found McBride guilty on Counts I through VII. During McBride’s
sentencing hearing on October 5, 2012, the trial court merged Count
I into II, Count VI into Count III, and Count VII into Count IV and
sentenced McBride to six years of incarceration on Count II and
eight years each on Counts III, IV, and V, with each sentence to run
consecutively, for a total aggregate sentence of thirty years.
McBride v. State, 992 N.E.2d 912, 914-16 (Ind. Ct. App. 2013) (footnotes
omitted).
On direct appeal, Mr. McBride was represented by counsel and raised the
following claims: (1) the trial court erred when it let him proceed pro se because
his waiver of counsel wasn’t knowing, voluntary, and intelligent; (2) the trial
court committed fundamental error when it admitted evidence obtained through
an improper show-up identification procedure; (3) the trial
court abused its
discretion in imposing consecutive sentences; and (4) his
sentence was
inappropriately long under Indiana Appellate Rule 7(B). Id. at 916-920. The
Indiana Court of Appeals rejected these arguments. The court concluded

that

Mr. McBride made a knowing and intelligent waiver of his right to counsel; that
he-waived any objection to the show-up identification and that the identification
procedure didn’t amount to a fundamental error; and that the trial court didn’t

4

K {a

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 5 of 16

abuse its discretion in imposing the sentence. Id. at 921. The court affirmed Mr.
McBride’s convictions and sentence in all respects. Id. Mr. McBride filed a
petition to transfer to the Indiana Supreme Court, raising one claim: that the
trial court committed reversible error when it permitted him to proceed pro se.
The Indiana Supreme Court denied transfer. McBride v. State, 999 N.E.2d 417
(Ind. 2013).
Mr. McBride then filed a state post-conviction petition. (ECF 12-8.) The
evidentiary hearing was rescheduled several times due to Mr. McBride’s requests
to amend the petition and for continuances of the hearing. A hearing was finally
held on December 6, 2016, but the docket reflects that Mr. McBride didn’t
appear. The petition was denied, and Mr. McBride didn’t pursue an appeal.
In January 2017, Mr. McBride filed a “motion to correct sentence” in the
trial court. The motion was denied. He later sought and was granted leave to
pursue a belated appeal of the trial court’s order. On appeal , he raised one claim:
that the

trial court erred in refusing to correct his sentence, because consecutive

sentences

should not have been imposed under state law. McBride v. State, 111

N,E.3d.257 (Table), 2018 WL 4290642, at *2 (Ind. Ct. App. Sept. 5, 2018). The
Indiana Court of Appeals concluded that the claim was barred by res judicata:
Mr. McBride had already litigated the propriety of his consecutive sentences on
direct appeal. The

court also found no merit to Mr. McBride’s argument, because

several aggravating factors to impose
the trial court appropriately relied on
consecutive sentences,

including the existence of multiple victims and the young

of the victims. The court rejected Mr. McBride’s argument that his
age of one
5

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 6 of 16
sentence violated a state statutory cap for a “single episode of criminal conduct,”
because the cap didn’t apply to crimes of violence. The Indiana Supreme Court
denied transfer. McBride v. State. 119 N.E.3d 90 (Ind. 2018).
Mr. McBride then filed this federal petition raising the following three
claims: (1) his Sixth Amendment right to counsel was denied when the trial court
permitted him to proceed pro se; (2) his sentence violated the “14th

5th

Amendment Due Process and Double Jeonardy Clause[s]”; and (3) he was
denied due process and effective assistance of counsel by the admission of [the]
show-up line-up.” (ECF 1 at 3-4.)

II.

ANALYSIS

Mr. McBride’s petition is governed by the provisions of the Anti-Terrorism
and Effective Death Penalty Act of 1996, which permits a court to grant habeas
relief to a person in custody pursuant to a state court judgment “on the ground
that he is in custody in violation of the Constitution or laws or treaties of the
United States.” 28 U.S.C. § 2254(a). The court can grant an application for
habeas relief if it meets the stringent requirements of 28 U.S: C. § 22.54(d)-, set
forth as follows:
An application for a writ of habeas corpus on behalf of a
person m custody pursuant to the judgment of a State court shall
not be granted with respect to any claim that was adjudicated on
clSm CntS m State court Proceedings unless the adjudication of the
(1) resulted in a decision that was contrary to or
involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the
United States; or

6

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 7 of 16

(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
This standard is “difficult to meet” and “highly deferential.” Hoglund v. Neal, 959
F.3d 819, 832 (7th Cir. 2020) (quoting Cullen v. Pinholster, 563 U.S. 170, 181
(2011)). “It is not enough for a petitioner to show the state court’s application of
was
federal law was incorrect; rather, he must show the application
unreasonable, which is a ‘substantially higher.threshold.’” Hoglund v. Neal, 959
F.3d at 832 (quoting Schriro v. Landrigan, 550 U.S. 465, 473 (2007)). In effect,
“[a] petitioner must show that the state court’s ruling on the claim being
presented in federal court was so lacking in justification that there was an error
well understood and comprehended in existing law beyond any possibility for
fair-minded disagreement.” Id. (quoting Harrington v. Richter, 562 U.S. 86, 103
(2011)).
Before considering the merits of a habeas petition, the court must ensure
that the petitioner has exhausted all available remedies in state court. 28 U.S.C.
§ 2254(b)(1)(A); Hoglund v. Neal, 959 F.3d at 832. The exhaustion requirement
flows from r
to address

ecognition that the state courts must be given the first opportunity

and correct violations of their prisoner’s federal rights . Davila v. Davis,

137 S. Ct. 2058, 2064 (2017); O’Sullivanv
For that opportunity to

, Boerckel, 526 U.S. 838, 845 (1999)).

be meaningful, the petitioner must fairly present his

. Raid win v. Reese, 541
constitutional claim in one complete round of state review
. Boerckel, 526 U.S, at 845. This includes
U.S. 27, 30-31 (2004); O'Sullivanv
of last resort.. O’Sullivan w
seeking discretionary review in the state court

7

% fc,. *)-

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20

page 8 of 16

Boerckel, 526 U.S. at 848. The companion procedural default doctrine, also
rooted in comity concerns, precludes a federal court from reaching the merits of
a claim if the claim was presented to the state courts and was denied on the
basis of an adequate and independent state procedural ground, or if the claim
was not presented to the state courts and the time for doing so has passed.
Davila v. Davis, 137 S. Ct. 2058, 2064 (2017); Coleman v. Thompson. 501 U.S.
722, 735 (1991).
In claim one, Mr. McBride asserts that his Sixth Amendment right to
counsel was denied when the trial court permitted him to proceed pro se. The
Indiana Court of Appeals rejected this argument on direct appeal, concluding
that Mr. McBride made a “knowing, voluntary, and intelligent waiver of his right
to counsel.” McBride v. State. 992 N.E.3d at 921 ^Mr. McBride hasn’t established
that this decision was contrary to or unreasonable application of Supreme Court
precedent
The Sixth Amendment affords criminal defendants the right to counsel,
but a defendant also has a qualified right to self-representation if he so chooses.
Faretta v. California, 422 U.S. 806, 835 (1975). “This is true despite the fact that
it is generally foolish for a person defending serious criminal charges to proceed
without counsel.” Tatum -7.: Foster, 847 F.3d 459, 461 (7th Cir. 2017). The
Supreme Court has held that trial judges should advise defendants of the
dangers of self-representation before they can make a knowing, voluntary, and
intelligent waiver of counsel. Faretta v. California. 422 U.S. at 835. A waiver’s
validity is “case specific,” Jean-Paulv, Douma. 809 F.3d 354,

8

rS- 'o <

359 (7th Cir. 2015),

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 9 of 16

and depends on the particular facts of the case, the background of the defendant,
his experience, and his actions. Iowa v._ Tovar, 541 U.S. 77, 81 (2004). Trial
judges are “entitled—indeed encouraged—to warn defendants of the risks that
attend self-representation.” Tatum v. Foster, 847 F.3d at 461. “In the end,
however, Faretta requires them to honor the defendant’s wishes, assuming that
the defendant is generally competent.” Id. It is the defendant’s burden to prove
that he did not competently and intelligently waive his right to the assistance of
counsel. Towa v. Tovar, 541 U.S. at 92.
In rejecting this claim on direct appeal, the Indiana Court of Appeals
recognized Mr. McBride’s Sixth Amendment right to proceed without counsel,
and applied state case law consistent with Faretta and Tovar in determining that
his waiver of counsel was knowing and voluntary. ■ McBride v. State, 992 N.E.2d
at 916-18. The record amply supports the court’s determination.
There is nothing in the record to suggest, nor does Mr. McBride argue, that
he suffers from a mental impairment or was otherwise incompetent to make the

his. right to counsel because" the trial court forced him to
record contradicts this argument^The trial court held
proceed pro se^but the

and voluntarily waive

two hearings on

Mr. McBride’s request to represent himself. The first was

or even be aware of applicable Supreme Court case law "so long as
1 A state court needn't cite to
state-court decision contradicts" Supreme Court precedent.
neither the reasoning nor the result of the
Parly v. Packer, 537 U.S. 3, 8 (2002).

9

i\

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 10 of 16

conducted by a judge pro tempore,2 who explored whether Mr. McBride wanted
to proceed on his own, because he persisted in filing pro se motions and briefs
even though he was represented by public defender Jennifer Harrison

B

apparent that no formal decision was made at that hearing whether Mr. McBride
would be allowed to represent himself, as both Mr. McBride and Ms. Harrison
appeared for a second hearing before the presiding judge on August 16, 2012',

during which the judge conducted a thorough inquiry into Mr. McBride’s request*
to proceed without counsel. The court repeatedly warned Mr. McBride about the
dangers of proceeding without counsel and emphasized the responsibilities he*
would have at trial if he elected to represent himself. The court told Mr. McBride
more than once that, based on the court’s own experiences with Ms. Harrison,
she was an effective and competent attomey^The court stated that it

saw no

conflicts or errors in Ms. Harrison’s representation to date, and instructed Mr.
McBride that he was not entitled to the court-appointed attorney of his choosing^j
The court further advised Mr. McBride that his choices were to retain an
attorney of his choosing, remain represented by Ms. Harrison as court-appointed
counsel, or proceed on his own.. Mr. McBride was clear that if those were the
choices, he preferred to represent himself^He answered a series of questions
from the court indicating that he understood the dangers of proceeding on his
own and the responsibilities he had if the case proceeded to trial. He affirmed

2 A judge pro tempore is a temporary judge appointed by the circuit court to perform certain
limited functions, including conducting preliminary hearings in criminal matters. See Ind. Code §§ 33-3811-1,33-38-11-2.

10

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 11 of 16
that he was waiving his right to counsel freely and voluntarily. The court granted
Mr. McBride’s request to proceed pro se, but also appointed Ms. Harrison as
standby counsel to assist him during the trial. On the day of the trial, Mr.
was
McBride represented to the court that he was prepared to proceed, and he
an active participant in the trial proceedings. Among other things, he raised
issues

about the state’s discovery production, carefully parsed through the jury

instructions, gave an opening statement, cross­ examined witnesses, including
conducting a detailed questioning of the state’s DNA expert, objected to the
admission of evidence, and made a lengthy closing argument pointing out
inconsistencies in the witnesses’ accounts. Mr. McBride also argued for leniency
(

at sentencing. In imposing the sentence, the court commented to Mr? McBride
that he appeared to be a “very smart individual.
Some of Mr.
of-counsel

McBride’s answers to the court’s questions during the waiver-

hearing

appear

equivocal,

but

not

for

any

confusion

or

misunderstanding by Mr. McBride. Rather, it appears he was trying to “hedge
his bets” by both demanding a
proceed pro se.

different court-appointed attorney and asking to

•At one point, he requested that he be permitted to proceed as

“co-counsel” with Ms. Harrison,

but the court rightly rejected this suggestion as

untenable. Indiana doesn’t allow such “hybrid’’ representation. See McNamv.
is clear that once counsel
State, 147 N.E.3d 1053 (lnd. Ct. App. 2020) (‘[T)he law is

well as a juvenile record.
11

A^. ^' Vl>

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 12 of 16
is appointed, a defendant speaks to the trial court through counsel and the trial
court is not required to respond to a defendant’s request or objection.”).
Our court of appeals has recognized that “[a] knowing and intelligent
waiver under Faretta “need not be explicit.” United States v. Thomas. 833 F.3d
785, 792 (7th Cir. 2016). “[S]o long as the district court has given a defendant
sufficient opportunity to retain the assistance of appointed counsel, defendant’s
actions which have the effect of depriving himself of appointed counsel will
establish a knowing and intentional choice.” Id. (citation omitted). Mr. McBride’s
representations to the court as well as his actions—namely, his continued filing
of pro se documents despite admonishments by the court that he must speak
through his counsel—evidenced that he did not want Ms. Harrison’s assistance.
After questioning him, the court found him “clear thinking,” albeit “pretty
hardheaded.” The court gave him the opportunity to keep Ms. Harrison
as his
counsel, retain counsel of his choosing, or proceed on his own, and fully advised
him of the dangers of proceeding without counsel. Mr. McBride made it clear
that he wouldn’t proceed further with Ms. Harrison as his counsel and that,
given those choices, he was electing to represent himself.
Mr. McBride says the court should have given him a different courtappointed attorney when he became dissatisfied with Ms. Harrison, but as the
Indiana Court of Appeals observed, he had no general Sixth Amendment right to
free representation by the attorney of his choosing.

See United States v.

Gonzalez-Lonez. 548 U.S. 140, 151 (2006); Wheat v. United States.

u.S. 153,

159 (1988). Nothing in the record suggests that Ms. Harrison was unqualified or

12

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 13 of 16

had a conflict that

prohibited her continued representation. Rather, Mr.

McBride’s arguments before the trial court were premised on the fact that Ms.
Harrison requested a

continuance of the trial date, even though Mr. McBride

wanted a speedy trial.4 As the trial court explained to him, this was a complex
case

involving multiple charges and victims. The case had only been pending for

a few months at that point, and Ms. Harrison had an ethical obligation to ensure
that she was

adequately prepared to proceed

to

trial.

Mr.

McBride

simultaneously complained to the court that Ms. Harrison had not yet conducted
depositions and a “photo line-up” with each victim, but as the trial court
explained, such actions would take time to complete. The record suggests that
Ms. Harrison did actually depose some of the witnesses before Mr. McBride
terminated her representation.
In summary, the record shows that Mr. McBride made the choice to
proceed pro se with his “eyes open.” Faretta v. California, 422 U.S. at 835. His
decision to represent himself on serious criminal charges might have been
unwise, but Faretta protects his right to make that choice . Id.; see also United
793 (defendant’s decision to proceed without
States v. Thomas, 833 F'.3d at
counsel was knowing and voluntary, where two hearing were held on defendant’s
request, he was adequately advised of the dangers of proceeding without counsel,
and he had a

basic understanding of the charges and potential penalties) . The

4 The record doesn t show any undue deky & P
g appointed on March 13. The trial
appeared for an initial hearing on March 9 2012 and Ms^ Harnson^ ^ ^ PP ^ of ^ ^ date. The
was originally scheduled for May 22. On May 1°' c0^s l q ^ continUance, to which Ms. Harrison
- P—

13
Pv 15s

*at date-

USDC IN/ND case 3:19-Cv-00050-RLM-MGG document 30 filed 08/19/20 page 14 of 16
Indiana Court of Appeals’ resolution of this claim was not contrary to or an
unreasonable application of Supreme Court precedent. Accordingly, the claim is
denied.
In claim two, Mr. McBride asserts that his sentence violated the “14th and
5th Amendment Due Process and Double Jeopardy Clause[s].” (ECF

1 at 3.) The

respondent argues that this claim is procedurally defaulted. (ECF 12 at 8.) To
properly exhaust a claim under 28 U.S C. § 2254(b)(1)(A), a habeas petitioner
must “ present both the operative facts and the legal principles that control each
claim at each level of state review. Stevens v. McBride. 489 F.3d 883, 894 (7th
Cir. 2007). This includes alerting th^ state court to the “federal nature” of the
(

claim. Baldwin v. Reese, 541 U.S. 27, 33 (2004). Mr. McBride didn’t do thaffor
this claim. Instead, his challenges to his sentence rested on state law. He cannot
assert a federal claim in this federal proceeding that he didn’t exhaust in state
court. Nor can he reassert his state-law.challenges‘to his sentence, -because
errors of state law don’t provide a basis for granting federal habeas relief. 28
U.S.C. § 2254(a); Estelle v. McGuire, 502 U.S. 62, 67-68 (1991). Mr. McBride
filed a traverse im support of his petition, but didn’t respond'to the
state’s
procedural default argument or provide grounds for excusing his default. (See
i

ECF 21.) Therefore, the court can’t consider this* claim- on the merits^
In claim three, Mr. McBride asserts that he was “denied due process and
effective assistance of counsel by the admission of [the] show-up line-up.” (ECF
1 at 4.) The respondent argues that this claim is also procedurally defaulted. Mr.
McBride raised the show-up claim on direct appeal before the Indiana Court of

14

f\ v>?.

iv.

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 15 of 16
e didn’t raise
any ineffective assistance of counsel claim on direct appeal or on appeal of the
denial of his motion to correct his sentence. Because he didn’t assert these
claims in his state appeals and the time for doing so has passed, they, too, are
procedurally defaulted. Mr. McBride doesn’t acknowledge his default or provide
any grounds for excusing it, so the court can’t consider this claim on the merits,
either.
a court to
Rule 11 of the Rules Governing Section 2254 Cases requires
either issue or deny a certificate of appealability whenever it enters a final order
adverse to the petitioner. To obtain a certificate of appealability, the petitioner
must make a

substantial showing of the denial of a constitutional right by

establishing “that reasonable jurists could debate whether (or, for that matter,
m a different manner or that
agree that) the petition should have been resolved i
deserve encouragement to proceed

the issues presented were adequate to

further.' gwlrv MrOaniel. 529 U.S. 473. 484 (2000) (internal quotation marks
and citation omitted). For the reasons

fully explained above, Mr. McBrides

claims are not cognisable in this proceeding, procedurally, defaulted, or otherwise
without merit under governing standards. The court Ends no basis to conclude
that reasonable jurists

would debate the outcome of the petition or End a reason

to encourage Mr. McBride to proceed further. Accordingly, the court declines to
issue him a certificate of appealability.

15

USDC IN/ND case 3:19-cv-00050-RLM-MGG document 30 filed 08/19/20 page 16 of 16
III.

CONCLUSION

For the reasons set forth above, the petition (ECF 1) is DENIED, and the
petitioner is DENIED a certificate of appealability. The clerk is DIRECTED to
enter judgment for the respondent.
SO ORDERED on August 19, 2020
s/ Robert L. Miller. Jr.
JUDGE
UNITED STATES DISTRICT COURT

16

iS

pPe,idfc«>

A

FOR PUBLICATION
ATTORNEY FOR APPELLANT:

ATTORNEYS FOR APPELLEE:

MICHAEL R. FISHER

GREGORY F. ZOELLER
Attorney General of Indiana

Indianapolis, Indiana

ELLEN H. MEILAENDER
Deputy Attorney General
Indianapolis, Indiana
IT"* > »

IN THE
COURT OF APPEALS OF INDIANA
KENNETH MCBRIDE,

)
)
)
)
)
)
)
)
)

Appellant-Defendant,
vs.
STATE OF INDIANA,
Appellee-Plaintiff.

A

nLtD
AlJG I 5 2013

No. 49A05-1211 -CR-547

APPEAL FROM THE MARION SUPERIOR COURT
The Honorable Kurt M. Eisgruber, Judge
Cause No. 49G01-1203-FB-15543

i

August 15,2013
OPINION-FOR PUBLICATION
BAKER, Judge

EXHIBIT E

a??.

!

?<«. iy

Following a jury trial, the appellant-defendant, Kenneth McBride, was found
guilty of Counts I and II, class B felony criminal Confinement,1 Counts III, IV, and V,
class B felony Robbery,2 and Count VI and VII, class C felony Battery,3 for which the
trial court sentenced McBride to an aggregate term of thirty years.
McBride appeals, asking our Court to vacate all of his convictions or, in the
alternative, to revise his sentence pursuant to our authority under Indiana Appellate Rule
7(B). Specifically, McBride claims that the trial court committed reversible error when it
allowed him to proceed pro se because he did not make a knowing, voluntary, and
intelligent waiver of his right to counsel. McBride also contends that the trial court
committed fundamental error when it admitted evidence obtained through1 an improper
show-up identification procedure and that his thirty-year executed sentence is

!

inappropriate in light of the nature of the offenses and his character.
Finding no reversible error and concluding that McBride’s sentence is not
inappropriate, we affirm.
FACTS
;

On March 7, 2012, around 4:30 p.m., Officer Ryan Irwin of the Indianapolis
Metropolitan Police Department (IMPD) responded to the dispatch of a robbery in
progress at the Oriental Market (Market), a grocery store on Lafayette Road owned by
Tnd. Code § 35-42-3-3.
21.C. § 35-42-5-1.
31.C. § 35-42-2-1

2

- Q. o

i

Bay Le Zhu (Zhu) and her husband. Officer Irwin arrived within one minute and found
that the employees, two of whom had obvious injuries, and Zhu’s six-year-old son Brian
were locked inside the Market. Irwin also found a twelve gauge shotgun lying on the
ground next to the market.
It was later established that Zhu, Brian, Zhu’s nephew Yixiu Chen (Yixiu), ICia
Wong (Wong) and his wife, Cai Nong Chen (Cai), were all at the market when McBride
and two other men, each armed and wearing dark clothing, gloves, and masks, entered the
Market through a back door and locked the door behind them.

The men confined

everyone in the kitchen, striking several of the victims with their guns and binding their
hands and legs with duct tape. After the men demanded money, Zhu gave them $1200
that she had in her pocket and was escorted out of the kitchen to the cash register, where
they took additional money. When Van Duong, a regular customer, came by, he noticed
that the door was locked even though the lights were on and the “open” sign was
displayed. Suspicious, Duong peered through the Market window and observed masked
men but none of the store employees. When he looked again, he saw Zhu taking money
from the register, and she gave him a sign to call for help.
McBride and the other men escaped in Wong’s vehicle, taking with them Wong’s
cell phone, Yixius’s cell phone and many of his keys including his house and the Market
keys, Zhu’s purse and keys, the $1200 that Zhu had on her, and the money from the cash
register. Duong got a good look at McBride and provided the license plate number of the
getaway vehicle to the 911 dispatcher.

He also reported that the vehicle had traveled
3

i

south on Lafayette Road. Officers located the vehicle after a citizen reported seeing
someone flee from the vehicle.
At around 5:00 p.m., McBride and his co-defendant, Adrian Jackson,4 were
apprehended. They were found crouched down between a wood deck area and a garage,
wearing dark clothing and shoes matching those worn by the robbers. Around and under
the deck where McBride and Jackson were apprehended, the officers recovered several
pieces of dark clothing, including a stocking cap mask, three dark gloves, the distinctive
jacket worn by one of the men during the robbery with a Bic lighter in it that matched
McBride’s DNA, multiple cell phones, a set of keys, and a small purse, all of which were
items taken from the victims during the robbery.

Additionally, a piece of foreign

currency and a rifle with Jackson’s DNA were recovered. Officers also found $622 on
McBride and $1106 on Jackson.
Jackson and McBride were arrested and taken to the police station and Zhu, Cai,
Wong, and Duong were brought over for a show-up identification.

All but Wong

identified either one or both men as the robbers with seventy to one hundred percent
certainty. Duong positively identified both men, stating that Jackson was the driver and
McBride was the front seat passenger in the getaway vehicle.
On March 9, 2012, the State charged McBride with Counts I and II, class B felony
criminal confinement, Counts III, IV, and V, class B felony robbery, and Counts VI, VII,
VIII, class C felony battery. On March 13, 2012, McBride was appointed a public
4 Adrian Jackson’s appeal has been assigned appellate cause number 49A05-1211-CR-553, and we hand
down that appeal contemporaneously with this one.
4

!

defender. On that day he also made a pro se request for a speedy trial, but on May 10,
2012, his counsel requested a continuance, which the trial court granted. McBride was
unhappy about his appointed counsel’s decision to request a continuance despite his
speedy trial request and proceeded to file motions and briefs pro se. McBride claimed
that because his appointed counsel sought a continuance against his will and was not
doing what he asked her to do, she had violated his constitutional right to counsel as well
as the rules of professional conduct.
On July 31, 2012, a waiver of counsel hearing was held, during which McBride
asked the trial court if he could proceed as co-counsel. This request was denied because
the trial court stated he was attempting to take the lead in his own defense, thus placing
his counsel at risk. McBride then petitioned the trial court to proceed pro se.
At a later hearing on August 16, 2012, the trial court questioned McBride about
his knowledge of the requirements for pro se litigants and advised McBride of the
responsibilities, dangers, and disadvantages that he might face by proceeding pro se. The
trial court also told McBride he was responsible for objections and that objections are the
manner in which he could preserve issues for appeal. The trial court specifically told
McBride that if objections are not made during trial, that particular issue would be
waived on appeal. During the advisement of rights hearing, the trial court was not
convinced that McBride would be prepared to proceed pro se and expressed this concern
to McBride several times. McBride acknowledged the fact that he needed counsel but

5

ft??.

11

refused to allow his appointed counsel to represent him because according to him, his
rights had been violated by the appointed counsel.
Having been informed of no specific instance of how McBride’s rights had been
violated by his counsel, the trial court told McBride that if he felt he needed counsel, he
would have to accept his appointed counsel because there was no evidence that the
appointed counsel had done anything wrong, and McBride did not have the right to
counsel of his choice.
The trial court also verified that McBride had the educational background and
mental capacity to defend himself and that no one had made either promises or threats to
coerce him into waiving his right to counsel. After the trial court read the advisement of
rights, McBride still insisted on representing himself and signed a written advisement
form stating that he had thoroughly reviewed all the dangers and disadvantages of self­
representation and had full knowledge of them.

Although the trial court granted

McBride’s request to proceed pro se, it also appointed McBride with “standby counsel”
that could answer questions about trial procedure.
A jury trial was held from September 17-19, 2012. On September 19, 2012, the
State dismissed Count VIII, and the jury found McBride guilty on Counts I through VII.
During McBride’s sentencing hearing on October 5, 2012, the trial court merged Count I
into IT, Count VI into Count III, and Count VII into Count IV and sentenced McBride to
six years of incarceration on Count II and eight years each on Counts III, IV, and V, with

6

each sentence to run consecutively, for a total aggregate sentence of thirty years.
McBride now appeals.
DISCUSSION AND DECISION
I. Waiver of Right to Counsel
McBride first alleges that the trial court erred when it permitted him to proceed
!

pro se because his waiver of his right to counsel was not knowing, voluntary, and
intelligent. Specifically, McBride claims that he only waived his right to counsel because
a judge pro tempore informed him that by his actions of filing pro se motions and
interposing objections, he had waived his right to counsel.
The Sixth Amendment to the United States Constitution guarantees a criminal

t

i

defendant the right to counsel. Jones v. State, 783 N.E.2d 1132, 1138 (Ind. 2003).
Implicit in the right to counsel is the right to self-representation. Drake v. State. 895
N.E.2d 389, 392 (Ind. Ct. App. 2008). However, before a defendant waives his right to
counsel and proceeds pro se, the trial court must determine that the defendant’s waiver of
counsel is knowing, voluntary, and intelligent. Jones. 783 N.E.2d at 1138. We review de
novo a trial court’s finding that a defendant waived his right to counsel. Miller v. State.
789 N.E.2d 32, 37 (Ind. Ct. App. 2003)
“The right to counsel in a criminal proceeding does not mean that the defendant
has an absolute right to be represented by counsel of his own choosing.” Smith v. State.
474 N.E.2d 973, 978-79 (Ind. 1985). A trial court may, in the exercise of its sound
discretion, deny a defendant’s request for a new court appointed attorney. Luck v. State.
7

^ £5 *

i

466 N.E.2d 450, 451 (Ind. 1984). Such a ruling is reviewable only for an abuse of
discretion. Id.
Our Supreme Court has stated that there are no specific “talking points” a trial
court must follow when advising a defendant of the dangers and disadvantages of
proceeding without counsel.

Povnter v. State. 749 N.E.2d 1122, 1126 (Ind. 2001).

Instead, a trial court needs only to come to a “considered determination” that the
defendant is making a knowing, voluntary, and intelligent waiver of his or her right to
counsel. Id. Our Supreme Court has adopted four factors for a trial court to consider
when determining whether a knowing, voluntary and intelligent waiver has occurred:
the extent of the court’s inquiry into the defendant’s decision, other
evidence into the record that establishes whether the defendant understood
the dangers and disadvantages of self-representation, the background and
experience of the defendant, and the context of the defendant’s decision to
proceed pro se.
Id. at 1127-28. In making this analysis, a trial court is in the best position to assess
whether the defendant has made a knowing, voluntary, and intelligent waiver, and the
trial court’s finding will most likely be upheld “where the judge has made the proper
inquiries and conveyed the proper information, and reaches a reasoned conclusion.”
Povnter. 479 N.E.2d at 1128.
We are perplexed by McBride’s involuntary waiver claim because he does not
claim that the trial court failed to advise him of the advantages of having an attorney
represent him. He makes no argument that the four Povnter factors were not met in his
case but instead claims that he only waived his right to counsel because at a waiver of
8

i

counsel hearing on July 31, 2012, a judge pro tempore informed him that he had waived
his right to counsel by his actions of filing pro se motions and interposing objections.
This is inaccurate because the record clearly shows that the judge pro tempore did not
explicitly tell McBride that he had waived his rights by filing motions and briefs pro se.
Instead, McBride was informed that if he wished to represent himself and continue filing
motions and briefs pro se, the court would have to relieve his counsel of her obligations
because McBride was attempting to take the lead in his pwn defense, thus placing his
attorney at risk. Tr. p. 435. The trial court further stated that if McBride wished to allow
his counsel do her job, she would continue to represent him and that this was his choice.
Id. Moreover, not once during the August 16, 2012 hearing did McBride express to the
trial court that he was waiving his right to counsel because he was advised by the judge
pro tempore that his rights had already been waived.
McBride also makes the argument that he had requested, more than once, that the
trial court appoint him alternative counsel but that his request was denied, thus showing
that his waiver of right to counsel was involuntary. We reject McBride’s contention
because McBride is not entitled to appointed counsel of his choosing. Smith. 474 N.E.2d
at 978-79. And he presented no evidence establishing that his appointed counsel was
ineffective. Accordingly, this argument fails.
II. Show-up Identification
McBride also claims that the trial court committed fundamental error when it
admitted evidence obtained through an improper show-up identification procedure.
9

p (a D

!
!

Specifically, he argues that the show-up identification was overly suggestive because he
was in handcuffs and the victims were informed before the identification that the police
had recovered their properties from the defendant. McBride further contends that even
though he failed to object at trial, the admission of the show-up identification evidence
was fundamental error.
The admission or exclusion of evidence falls within the sound discretion of the trial
court, and its determination regarding the admissibility of evidence is reviewed only for an
abuse of discretion. Gordon v. State. 981 N.E.2d 1215, 1217 (Ind. Ct. App. 2013). An
abuse of discretion occurs when the trial court’s decision is clearly against the logic and
effects of the facts and circumstances before the court. Id To preserve an error for
review, the specific objection relied upon on appeal must have been stated in the trial
court as a basis for the objection. Hale v. State, 976 N.E.2d 119, 123 (Ind. Ct. App. 2012).
Thus, a claim may be waived for the purposes of an appeal where the defendant failed to
object that the evidence was improperly admitted. Id at 1218.
As discussed above, the trial court specifically informed McBride that he would be
responsible for objections and that those objections were how McBride would preserve
errors for appeal. Tr. p. 453. The trial court further advised McBride that if he failed to
make objections, he would waive those errors on appeal. Id. McBride stated that he
understood these advisements. Id.

10

%

SB

McBride admits that he did not oppose the admission of the show-up identification
and that he did not move to suppress this evidence or object to its admission at trial.
Appellant’s Br. p. 19. Thus, these issues are waived.
McBride attempts to avoid waiver by invoking the fundamental error doctrine. In
support of this contention, McBride claims that the show-up identification procedure was
unduly suggestive because the suspects were the only choice offered, as opposed to a line­
up or photo array where multiple options are presented to the witnesses. However, the
fundamental error doctrine is an extremely narrow doctrine and “applies only when the
i

error constitutes a blatant violation of basic principles, the harm or potential for harm is
substantial, and the resulting error denies the defendant fundamental due process.”
Gordon, 981 N.E.2d at 1218.
Even though our Supreme Court has cautioned against one-on-one show-up
identifications because of their inherent suggestiveness, identification evidence gathered
via a show-up procedure is not subject to a per se rule of exclusion in accordance with the
fundamental error doctrine.

Id.

Rather, the admissibility of show-up identification

evidence turns on an evaluation of the totality of the circumstances and whether those
circumstances lead to the conclusion that the confrontation was conducted in a manner
that could guide a witness into making a mistaken identification. Id.
In Mitchell v. State, this Court listed several factors for trial courts to consider
when determining whether show-up identification evidence was permissible, including the
witness’s opportunity to view the criminal, the distance between the witness and the
11

I

criminal during the crime, the lighting conditions, and the length of time between the
commission of the crime and the show-up identification. 690 N.E.2d 1200, 1204 (Ind. Ct.
App. 1998)
Here, the crime scene was well-lit, and the surveillance video shows that the mask
did not completely hide their facial features. State’s Ex. 11. Yixiu testified that he could
see the shape of the faces of two of the robbers because the masks were very thin. Tr. p.
85-86. The show-up identification also occurred soon after the robbery, and the other
witnesses presented testimony regarding their identification of McBride. Moreover, the
i

first officer was at the scene around 4:30 p.m., McBride and Jackson were apprehended
few blocks away around 5:00 p.m., and the witnesses were brought in for the show-up
identification shortly thereafter. Id at 53-54, 86, 198.
Under these circumstances, McBride has failed to show that the show-up
identification was unduly suggestive. The State presented the surveillance video at trial as
weft as evidence that McBride and Jackson were apprehended wearing the same clothes
the robbers were said to have been wearing with other stolen items found were they were
apprehended. Id. at 255-65, 283; State’s Ex. p. 11, 48-53.
Nevertheless, McBride maintains that the show-up identification was unduly
suggestive because the witnesses were told by the police that they had recovered the stolen
property from them before the witnesses were asked to make the identification.
Appellant’s Br. p>. 18. However, Cai did not testify that any police officer told her
anything that would have influenced her identification, and none of the other witnesses
12

PQ, 3o

■

testified that they saw the items observed by Cai or that they were influenced by anything

i

leading up to their identifications.
As a result, when considering the circumstances here, McBride’s claim of
fundamental error fails.
III. Sentencing
A. Abuse of Discretion
McBride next argues that the trial court erred in imposing consecutive sentences.
Specifically, he claims that even though he was sentenced to less than the advisory term
on each of the class B felonies, the trial court erred by ordering that his sentences run
consecutively, especially considering the fact that he has a minor criminal history.
The decision to impose consecutive sentences lies within the discretion of the trial
court. Ind. Code § 35-50-1-2; Gilliam v. State. 901 N.E.2d 72, 74 (Ind. Ct. App. 2009).
However, a trial court is required to state its reasoning for imposing consecutive
sentences. Gilliam. 901 N.E.2d at 74. In order to impose consecutive sentences, a trial
court must find at least one aggravating circumstance. Owens v. State. 916 N.E.2d 913,
917 (Ind. Ct. App. 2009). It is a well-established principle that the existence of multiple
crimes or victims constitutes a valid aggravating circumstance that a trial court may
consider in imposing consecutive sentences. O’Connell v. State. 742 N.E.2d 943, 952
(Ind. 2001).
During McBride’s sentencing hearing, the trial court stated that the sentences
should run consecutively because McBride and his co-defendant had committed the
13

3\

i

crimes against multiple victims in the presence of a six-year-old. Tr. p. 428. These are
indeed valid aggravating circumstances that can be used to impose consecutive sentences.
McBride also alleges that the consecutive sentences are not appropriate because he
has a minor criminal history. Appellant Br. p. 20. He further claims that he is the father
of a three-year-old daughter and that imprisonment would result in undue hardship to him
or his dependent. Id. at 24-25. Thus, it appears that McBride is arguing that the trial court
erred by failing to find mitigating factors that were supported by the evidence.
Although the failure to find mitigating circumstances that are clearly supported by
the record may suggest they were overlooked, a trial court does not have to afford the
same credit or weight to the proffered mitigating circumstance as a defendant may
suggest. Thacker v. State. 709 N.E.2d 3, 10 (Ind. 1999). Moreover, if the trial court does
not find the existence of a mitigating factor after it has been argued by counsel, the trial
court is not obligated to explain why it has found that the factor does not exist.
Anglemver v. State. 868 N.E.2d 482, 493 (Tnd. 2007).
In this case, the trial court in fact considered McBride’s contentions that he had a
less severe criminal history than his co-defendant and that imprisonment would result in
undue hardship to him or his three-year-old daughter. However, the trial court found that
these factors were not significant and, thus, were not factors that would have an impact on
the sentence. Thus, McBride’s claim fails.
McBride also alleges that because he proceeded pro se, he was unaware of the
statutory factors that the trial court could have considered under Indiana Code section 3514

P^\>. ^

38-1-7.1 when sentencing him. Appellant Br. p. 24.

McBride’s lack of knowledge

regarding this statute does not affect the trial court’s sentencing decision. As discussed
above, McBride’s waiver of counsel was knowingly, voluntarily, and intelligently made.
Thus, he was therefore responsible for knowing what statutory factors he should argue at
his sentencing hearing.
B. Inappropriate Sentence
Finally, McBride argues that his sentence is inappropriate pursuant to Indiana
Appellate Rule 7(B). Under this rule, we have the constitutional authority to revise a
sentence if, after consideration of the trial court’s decision, this Court concludes the
sentence is inappropriate in light of the nature of the offense and the character of the
offender.

Ind. Appellate Rule 7(B).

It is the defendant’s burden to “persuade the

appellate court that his or her sentence has met the inappropriateness standard of review.”
Anglemyer. 868 N.E.2d at 494.
Here, McBride has failed to make any discernible argument regarding the nature of
the robbery or his character. Thus, we find that he has failed to present a cogent argument
in support of this claim and has, therefore, waived the issue.

See Ind. App. Rule

46(A)(8)(a).
Waiver notwithstanding, regarding the nature of the offenses, we note that the
advisory sentence is the starting point our legislature has selected as an appropriate
sentence for the crime committed. Childress v. State, 848 N.E.2d 1073, 1080 (Ind. 2006).
The advisory sentence for both class B felony criminal confinement and class B felony
15

i
:

j

robbery is ten years with a sentencing range from six years to twenty years. I.C. § 35-502-5. McBride was sentenced to six years on the felony confinement conviction and eight
years each on the felony robbery convictions.

Thus, for each of his convictions,

McBride’s sentences fell below the advisory term.
Our review of the record reveals that McBride committed multiple crimes of
violence. McBride and the other men robbed the victims while armed with guns that they
used to physically assault the victims. They also bound the victims with duct tape and

i

confined them in the kitchen with guns pointed at them. And finally, they engaged in this
i

conduct in the presence of a six-year-old boy.
Notwithstanding these circumstances, McBride claims that the offenses should be

!

considered as being less serious because the guns recovered were unloaded and he could
not have shot anyone during this incident. However, McBride and the other men used the
guns in a threatening manner causing the victims to experience substantial fear. Indeed,
f

although the guns were not fired at the victims, the guns were used to inflict bodily
S

injuries on the victims. Thus, McBride’s nature of the offense argument avails him of
nothing.
Likewise, our review of McBride’s character reveals that McBride has a lengthy

s

criminal history that involves prior crimes of violence. As a juvenile, McBride had four

\

true findings for battery and one for disorderly conduct. PSI p. 4-5. As an adult, McBride
has convictions for class D felony battery, class A misdemeanor resisting law

'i

i

enforcement, and violation of his probation. Id. at 5-6.

S
j

16

F\

3^

!

McBride argues that the State contended at sentencing that he was at a very high
risk to reoffend but that there was nothing to support the State’s contention but for the
deputy, prosecutor’s speculations. Notwithstanding this claim, that McBride is likely to
reoffend was not an aggravating circumstance considered by the trial court. However,
McBride’s criminal and juvenile histories demonstrate that he has no respect for our
judicial system despite the opportunities that were offered to him to change. As a result,
McBride has failed to show that his sentence was inappropriate.
Conclusion
In sum, we conclude that McBride made a knowing, voluntary, and intelligent
waiver of his right to counsel. We also conclude that McBride waived his objection to
the show-up identification, and the show-up procedure did not amount to fundamental
error. Finally, we conclude that the trial court neither abused its discretion in sentencing
McBride nor Sentenced him inappropriately.
The judgment of the trial court is affirmed.
MAY, J, and MATHIAS, J., concur.

17

fee-

,3s

IN THE
INDIANA COURT OF APPEALS
No. 49A05-1211 -CR-000547

KENNETH McBRIDE
Appellant
(Defendant Below)
V.
STATE OF INDIANA
Appellee
(Plaintiff Below)

)
)
)
)
)
)
)
)
)

Appeal from the Marion Superior
Court, Criminal Division 1

!:

Cause No. 49G01-1203-FB-01 5543

The Honorable Kurt Eisgruber,
Judge
I,
i

PETITION FOR REHEARING
i

ORDER
Appellant’s Petition for Rehearing is DENIED this 7th day of October, 2013.
All panel Judges concur.

fk&yuJ' A (&M>\

f

Margret G. Robb, Chief Judge
Court of Appeals of Indiana
t

!

f\^. V&. 3to.

'

ORIGINAL

t/)b

; ^±S

4

s"

/

&

IN THE:

*5
sr

£>\

£

HIED ,

V2

OCT 15 2013

INDIANA SUPREME COURT

&

€>
6>

Cause No.

fj

-V •"

v/

Court of Appeals Cause No. 49A05-.1211 -CR-000547
• <. J

KENNETH McBRIDE
Appellant
(Defendant Below)

I
I
I
i

V.

STATE OF INDIANA
Appellee
(Plaintiff Below)

’Appeal from' the'Marion Superior
/Court,'.Crlminar Division 1
)
)
. )
)

Cause;No. 49G01-1203-FB-015543
. :•

:
t

)■

The Honidrabje Kurt Eisgruber, Judge ■
■
iT;

I

;

V - •:

/V
rO

•: •

t
. -v-l

Ia

i.

S'

QKPEK
r
Petition to iransferjs hereby DENIED,
this /j^day of
^ Cts.
, 20 IS.

I
I

CHIEF JUSTICE
AH Justices concur.

i

!

1
I
i
*

!

l
i

\

i

i

;
i

I

.

i

!_
i

?G- 34

,

V

MEMORANDUM DECISION
Pursuant to Ind. Appellate Rule 65(D),
this Memorandum Decision shall not be
regarded as precedent or cited before any
court except for the purpose of establishing
the defense of res judicata, collateral
estoppel, or the law of the case.

r FILED
Sep 05 2018, 8:53 am

CLERK

Indiana Supreme Court
k Court of Appeals a
and Tax Court ^

Appellant Pro Se

Attorneys for Appellee

Kenneth McBride
Bunker Hill, Indiana

Curtis T. Hill, Jr.
Attorney General of Indiana
Elleh IT. Meilaender
Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Kenneth McBride,

September 5, 2018

Appellant-Petitioner,

Court of Appeals Case No.
49A05-1705-CR-1050

v.

State of Indiana,
Appellee-Respondent

Appeal from the Marion Superior
Court
The Honorable Kurt Eisgruber,
Judge
Trial Court Cause No.
49G01-1410-PC-48689

Baker, Judge.

Court of Appeals of Indiana | Memorandum Decision 49A05-1705-CR-1050 | September 5, 2018

ft??. VC 3%

Page 1 of 6

[l]

Kenneth McBride appeals the trial court’s denial of his motion to correct
erroneous sentence. Finding no error, we affirm.

Facts
[2]

The underlying facts, as described by this Court in McBride’s direct appeal, are
as follows:
On March 7, 2012, around 4:30 p.m., Officer Ryan Irwin of the
Indianapolis Metropolitan Police Department (IMPD) responded
to the dispatch of a robbery in progress at the Oriental Market
(Market), a grocery store on Lafayette Road owned by Bay Le
Zhu (Zhu) and her husband. Officer Irwin arrived within one
minute and found that the employees, two of whom had obvious
injuries, and Zhu’s six-year-old son Brian were locked inside the
Market. Irwin also found a twelve gauge shotgun lying on the
ground next to the market.
It was later established that Zhu, Brian, Zhu’s nephew Yixiu
Chen (Yixiu), Kia Wong (Wong) and his wife, Cai Nong Chen
(Cai), were all at the market when McBride and two other men,
each armed and wearing dark clothing, gloves, and masks,
entered the Market through a back door and locked the door
behind them. The men confined everyone in the kitchen, striking
several of the victims with their guns and binding their hands and
legs with duct tape. After the men demanded money, Zhu gave
them $1200 that she had in her pocket and was escorted out of
the kitchen to the cash register, where they took additional
money. When Van Duong, a regular customer, came by, he
noticed that the door was locked even though the lights were on
and the “open” sign was displayed. Suspicious, Duong peered
through the Market window and observed masked men but none
of the store employees. When he looked again, he saw Zhu
taking money from the register, and she gave him a sign to call
for help.
Court of Appeals of Indiana | Memorandum Decision 49A05-1705-CR-1050 | September 5, 2018

ft??- ?6.

Page 2 of 6

McBride and the other men escaped in Wong’s vehicle, taking
with them Wong’s cell phone, Yixius’s cell phone and many of
his keys including his house and the Market keys, Zhu’s purse
and keys, the $1200 that Zhu had on her, and the money from
the cash register. Duong got a good look at McBride and
provided the license plate number of the getaway vehicle to the
911 dispatcher. He also reported that the vehicle had traveled
south on Lafayette Road. Officers located the vehicle after a
citizen reported seeing someone flee from the vehicle.
At around 5:00 p.m., McBride and his co-defendant, Adrian
Jackson, were apprehended. They were found crouched down
between a wood deck area and a garage, wearing dark clothing
and shoes matching those worn by the robbers. Around and
under the deck where McBride and Jackson were apprehended,
the officers recovered several pieces of dark clothing, including a
stocking cap mask, three dark gloves, the distinctive jacket worn
by one of the men during the robbery with a Bic lighter in it that
matched McBride’s DNA, multiple cell phones, a set of keys, and
a small purse, all of which were items taken from the victims
during the robbery. Additionally, a piece of foreign currency and
a rifle with Jackson’s DNA were recovered. Officers also found
$622 on McBride and $1106 on Jackson.
Jackson and McBride were arrested and taken to the police
station and Zhu, Cai, Wong, and Duong were brought over for a
show-up identification. All but Wong identified either one or
both men as the robbers with seventy to one hundred percent
certainty. Duong positively identified both men, stating that
Jackson was the driver and McBride was the front seat passenger
in the getaway vehicle.
McBride v. State, 992 N.E.2d 912, 914-15 (Ind. Ct. App. 2013) (footnote
omitted).

Court of Appeals of Indiana | Memorandum Decision 49A05-1705-CR-1050 | September 5, 2018

^

Ho

Page 3 of 6

[3]

On March 9, 2012, the State charged McBride with two counts of Class B
felony criminal confinement, three counts of Class B felony robbery, and three
counts of Class C felony battery. A jury trial took place from September 17-19,
2012. On September 19, 2012, the State dismissed one of the Class C felony
battery charges. The jury found McBride guilty on all other charges. On
October 5, 2012, a sentencing hearing took place, during which the trial court
merged one count of the criminal confinement conviction into the other and
merged the battery convictions into two counts of the robbery convictions. The
trial court sentenced McBride to six years executed for the criminal
confinement conviction and eight years executed for each of the three robbery
convictions, with all sentences to run consecutively, for an aggregate sentence
of thirty years. Id. at 916.

[4]

On direct appeal, McBride argued in relevant part that the trial court erred by
imposing consecutive sentences. This Court held that the trial court did not err
by imposing consecutive sentences because the sentences were based on the
aggravating factors that McBride had committed the crimes against multiple
victims and in the presence of a six-year-old, which were valid aggravating
factors that could be used to impose consecutive sentences. Id. at 919-20.

[5]

On February 12, 2016, McBride filed an amended petition for post-conviction
relief, which the post-conviction court denied on December 6, 2016. On
January 13, 2017, McBride filed a motion to correct erroneous sentence,
arguing that the trial court erred by imposing consecutive sentences when it did

Court of Appeals of Indiana | Memorandum Decision 49A05-1705-CR-1050 I September 5, 2018

%

Ml

Page 4 of 6

not base his sentence on any aggravators. The trial court denied the motion on
January 17, 2017. McBride now appeals.

Discussion and Decision
[6]

McBride’s sole argument on appeal is that the trial court erred by denying his
motion to correct erroneous sentence. We will reverse a trial court’s ruling on a
motion to correct sentence only if the ruling is against the logic and effect of the
facts and circumstances before it. Woodcox v. State, 30 N.E.3d 748, 750 (Ind. Ct.
App. 2015). While we defer to the trial court’s factual determinations, we
review legal conclusions de novo. Id.

[7]

Initially, we note that McBride’s claims are barred as a matter of res judicata.
As a general rule, when this Court decides an issue on direct appeal, the
doctrine of res judicata applies, thereby precluding its review in post-conviction
proceedings. State v. Holmes, 728 N.E.2d 164, 168 (Ind. 2000). The doctrine of
res judicata prevents the repetitious litigation of that which is essentially the
same dispute. Id. This Court upheld the validity of McBride’s sentence on
direct appeal, specifically holding that the trial court had relied on valid
aggravating factors to support the consecutive sentences. McBride, 992 N.E.2d
at 919-21. Because McBride already litigated on direct appeal the validity of his
consecutive sentences, he may not attempt to litigate that issue for a second
time through his motion to correct erroneous sentence.

[8]

The matter of res judicata notwithstanding, we find no merit in McBride’s
argument. He first alleges that his consecutive sentences were unlawful because
Court of Appeals of Indiana | Memorandum Decision 49A05-1705-CR-1050 | September 5, 2018

Page 5 of 6

,A
the trial court did not fmd any aggravating factors to support imposing
consecutive sentences. A trial court is required to state its reasoning and to find
at least one aggravating factor to impose consecutive sentences. Id. at 919.
Here, the trial court’s oral and written sentencing statements clearly show that it
found and relied upon several aggravating factors to support the consecutive
sentences, including the nature and circumstances of the crimes, the existence
of multiple victims, and the young age of one of the victims. Appellant’s App.
p. 30-32.
[9]

McBride also argues that the trial court erred by imposing consecutive
sentences for his three convictions of Class B felony robbery because the crimes
arose out of a single episode of criminal conduct.1 But at the time of the
offenses, Class B felony robbery was a “crime of violence,” and the limit on
consecutive sentences for single episodes of criminal conduct did not apply to
crimes of violence. Ind. Code § 35-50-l-2(a)(12), -(c) (2012). Therefore,
McBride’s sentences were not subject to statutory limits on sentences for single
episodes of criminal conduct. McBride’s argument is unavailing.

[io]

The judgment of the trial court is affirmed.

May, J., and Robb, J., concur.

1 This argument should have been raised in McBride’s direct appeal and is now untimely. Nevertheless, we
will briefly address it.
Court of Appeals of Indiana | Memorandum Decision 49A05-1705-CR-1050 | September 5, 2018

*33 *

Page 6 of 6

